Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        NEW YORK STATE
  MADE UNALLOWABLE MEDICAID
FEE-FOR-SERVICE PAYMENTS FOR
BENEFICIARIES ALSO ENROLLED IN
   MEDICAID MANAGED CARE


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      January 2014
                                                      A-02-12-01007
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 New York State claimed at least $23.4 million over approximately 5 years in unallowable
 Federal Medicaid reimbursement for fee-for-service payments for beneficiaries also
 enrolled in managed care.

WHY WE DID THIS REVIEW

During a prior review, we identified a vulnerability in New York State’s Medicaid program.
Specifically, we found that New York assigned some Medicaid beneficiaries more than one
Medicaid identification number, resulting in separate Medicaid managed care payments being
made for the same beneficiary. The review raised concern that Medicaid fee-for-service
payments could also be vulnerable.

The objective of this review was to determine whether the New York State Department of Health
(State agency) prevented separate Medicaid fee-for-service payments for inpatient hospital
services from being made on behalf of beneficiaries who were also enrolled in a Medicaid
managed care organization (MCO).

BACKGROUND

Federal regulations authorize payments to States for eligible Medicaid beneficiaries enrolled in
an MCO. States may enter into comprehensive risk contracts with MCOs for the provision of
medical services to enrollees. A comprehensive risk contract provides for the coverage of
comprehensive medical services, including inpatient hospital services. States must ensure that
no payments are made to providers other than MCOs for services available under the contract
between the States and the MCOs.

In New York, the State agency electronically maintains eligibility information in its Welfare
Management System, which operates as two separate systems: one for beneficiaries residing in
New York City and one for beneficiaries residing elsewhere in the State.

HOW WE CONDUCTED THIS REVIEW

Our review covered Medicaid-reimbursed services related to 3,984 inpatient hospital admissions,
totaling approximately $51.4 million ($25.7 million Federal share), paid for the same month that
a managed care payment was made for the same beneficiary under a different Medicaid
identification number during the period October 1, 2006, through November 30, 2011. We
reviewed all fee-for-service payments related to our random sample of 107 inpatient hospital
admissions.

WHAT WE FOUND

The State agency did not prevent separate Medicaid fee-for-service payments from being made
for beneficiaries also enrolled in a Medicaid MCO. Specifically, for all 107 inpatient admissions
included in our sample, the State agency improperly claimed Federal Medicaid fee-for-service


Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)       i
reimbursement for inpatient hospital services on behalf of beneficiaries for whom separate
Medicaid managed care payments were made under a different Medicaid identification number.
These improper payments occurred because the State agency operated two eligibility systems
that did not identify beneficiaries with multiple Medicaid identification numbers. In addition,
local departments of social services did not use all available resources within the systems to
ensure that beneficiaries were not issued multiple Medicaid identification numbers.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $23,406,895 in Federal Medicaid fee-for-service reimbursement for inpatient hospital
services made on behalf of beneficiaries for whom separate Medicaid managed care payments
were also made.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $23,406,895 to the Federal Government and

    •   use all available resources to ensure that no beneficiary is issued multiple Medicaid
        identification numbers or develop one eligibility system that could be used to determine
        whether applicants are enrolled in any medical or public assistance program throughout
        New York State.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially agreed with our first
recommendation (financial disallowance) and generally agreed with our second
recommendation. Specifically, the State agency indicated that the amount it should recover and
refund to the Federal Government is significantly less than what we recommended because some
of the beneficiaries associated with the unallowable claims were ineligible for enrollment in the
Medicaid MCO during our audit period. Therefore, according to the State agency, the
beneficiaries’ associated fee-for-service claims were billed correctly. The State agency stated
that rather than recover the fee-for-service payments for these beneficiaries, it should recover the
monthly capitation payment made to the Medicaid MCO. Finally, the State agency described
steps that it has taken or planned to take to ensure that no beneficiary is issued multiple Medicaid
identification numbers.

After reviewing the State agency’s comments on our draft report, we maintain that our findings
are valid. The State agency did not prevent separate fee-for-service payments from being made
for beneficiaries already enrolled in Medicaid MCOs. If beneficiaries were ineligible for
enrollment in an MCO, the State agency should have disenrolled them from the MCO when they
became ineligible (i.e., prior to claiming reimbursement for services on a fee-for-service basis).
In order for the State agency to determine the appropriate amount it should recover using the
approach it described in its comments, it would have to develop a sampling frame of monthly
capitation payments made for these beneficiaries during the audit period. The State agency
would then have to estimate the total unallowable monthly capitation payments made on behalf
of beneficiaries ineligible for enrollment in MCOs.

Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)       ii
                                                    TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

         Why We Did This Review ................................................................................................1

         Objective ...........................................................................................................................1

         Background .......................................................................................................................1
               The Medicaid Program ..........................................................................................1
               New York State’s Medicaid Program ...................................................................1

         How We Conducted This Review .....................................................................................2

FINDING .....................................................................................................................................3
     Medicaid Fee-for-Service Payments Made on Behalf
      of Beneficiaries Enrolled in Managed Care ....................................................................3

RECOMMENDATIONS .............................................................................................................4

STATE AGENCY COMMENTS ................................................................................................4

OUR RESPONSE ........................................................................................................................5

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................6

           B: Statistical Sampling Methodology .............................................................................8

           C: Sample Results and Estimates ...................................................................................10

           D: State Agency Comments ............................................................................................11




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)                                                      iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

During a prior review, we identified a vulnerability in New York State’s Medicaid program.
Specifically, we found that New York assigned some Medicaid beneficiaries more than one
Medicaid identification number, resulting in separate Medicaid managed care payments being
made for the same beneficiary. 1 The review raised concern that Medicaid fee-for-service
payments could also be vulnerable.

OBJECTIVE

Our objective was to determine whether the New York State Department of Health (State
agency) prevented separate Medicaid fee-for-service payments for inpatient hospital services
from being made on behalf of beneficiaries who were enrolled in a Medicaid managed care
organization (MCO).

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. The State plan establishes which services the Medicaid program will
cover. Although a State has considerable flexibility in designing and operating its Medicaid
program, it must comply with Federal requirements.

New York State’s Medicaid Program

In New York State, the State agency administers the Medicaid program. Local departments of
social services (local districts) are responsible for determining whether individuals applying for
Medicaid meet eligibility requirements and ensuring that eligible individuals have only one
active Medicaid identification number. Each county is considered its own local district, except
the five counties that make up New York City, which are considered a single district.

The State agency pays Medicaid providers by one of two methods: the fee-for-service method,
in which a provider is paid for every Medicaid-eligible service rendered to a beneficiary, and the
capitation method, in which an MCO is paid a monthly fee to ensure that an enrolled beneficiary
has access to a comprehensive range of medical services.



1
 New York State Made Unallowable Medicaid Managed Care Payments for Beneficiaries Assigned Multiple
Medicaid Identification Numbers (A-02-11-01006, issued April 15, 2013).

Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)          1
Beneficiary Enrollment

The State agency electronically maintains eligibility information, including beneficiaries’
Medicaid identification numbers, in its Welfare Management System (WMS). 2 The WMS
operates as two systems: one for beneficiaries residing in New York City (downstate WMS) and
one for beneficiaries residing elsewhere in New York State (upstate WMS). Local districts also
use the WMS to assign Medicaid identification numbers. State agency guidance states that the
local district is to check its WMS to determine whether an applicant is receiving medical or
public assistance benefits and has been issued a Medicaid identification number. 3

Federal Requirements

Federal regulations authorize payments to States for eligible Medicaid beneficiaries enrolled in
an MCO. 4 States may enter into comprehensive risk contracts with MCOs for the provision of
medical services to their enrollees. 5 A comprehensive risk contract provides for the coverage of
comprehensive medical services, including inpatient hospital services. 6 States must ensure that
no payments are made to providers other than MCOs for services available under the contract
between the States and the MCOs. 7

HOW WE CONDUCTED THIS REVIEW

Our review covered Medicaid fee-for-service payments that the State agency made for inpatient
hospital services on behalf of beneficiaries also enrolled in a Medicaid MCO during the period
October 1, 2006, through November 30, 2011. 8 We excluded 3,822 inpatient hospital
admissions, 9 totaling $130,046,096 ($65,023,067 Federal share), that were not covered by MCO
capitation payments. Our revised sampling frame consisted of 3,984 inpatient hospital


2
 The WMS maintains and processes information relating to individuals who have been determined eligible for
benefits under all assistance programs, including Medicaid.
3
 The databases for both the downstate and upstate WMS compare the name, date of birth, Social Security number
(SSN), and sex of an applicant to all other beneficiaries within the same database and produce a report of individuals
with similar SSNs and/or names as the applicant. Local district employees are expected to review these reports to
determine whether an individual applying for Medicaid is the same as another individual on the report with an
existing Medicaid identification number.
4
    The Social Security Act, section 1903(m).
5
    42 CFR § 438.6(b).
6
    42 CFR § 438.2.
7
    42 CFR § 438.60.
8
    These inpatient hospital services were all covered services by MCO capitation payments.
9
 An inpatient hospital admission consisted of all fee-for-service payments related to a beneficiary’s inpatient
hospital admission.

Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)                        2
admissions, totaling $51,441,844 ($25,740,732 Federal share), of which we reviewed a random
sample of 107 inpatient hospital admissions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                    FINDING

MEDICAID FEE-FOR-SERVICE PAYMENTS MADE ON BEHALF OF
BENEFICIARIES ENROLLED IN MANAGED CARE

Sections 2(d)(2)(A) and (B) of the Improper Payments Information Act of 2002 10 define
improper payments as any payments that should not have been made, including duplicate
payments. Federal regulations (42 CFR § 438.60) require States to ensure that no payments are
made to providers other than MCOs for services available under contracts between the States and
the MCOs.

The State agency did not prevent separate Medicaid fee-for-service payments from being made
for beneficiaries also enrolled in a Medicaid MCO. Specifically, for all 107 inpatient admissions
included in our sample, the State agency improperly claimed Federal Medicaid fee-for-service
reimbursement for inpatient hospital services on behalf of beneficiaries for whom separate
Medicaid managed care payments were made under a different Medicaid identification number.

We identified several circumstances that caused the assignment of multiple Medicaid
identification numbers and led to the same beneficiary being enrolled in both a Medicaid MCO
and in the fee-for-service program during the same month. Specifically:

       •   Beneficiaries were issued multiple Medicaid identification numbers through the
           different eligibility systems. For 67 inpatient admissions, case records indicated that
           local districts assigned beneficiaries one Medicaid identification number through the
           upstate WMS and another through the downstate WMS.

       •   Beneficiaries were issued multiple Medicaid identification numbers by the same
           local district offices. For 22 inpatient admissions, case records indicated that
           beneficiaries applied multiple times for medical and/or public assistance benefits and
           were assigned more than one Medicaid identification number by the same local district
           office.


10
     The Improper Payments Information Act is codified at 31 U.S.C. § 3321.

Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)         3
     •   Newborns and Supplemental Security Income beneficiaries were issued multiple
         Medicaid identification numbers. For 18 inpatient admissions, case records indicated
         that a second Medicaid identification number was issued to a newborn or Supplemental
         Security Income (SSI) beneficiary even though the child or beneficiary already had an
         active Medicaid identification number. 11

The improper payments made on behalf of these beneficiaries occurred because the State agency
operated two eligibility systems that did not identify beneficiaries with multiple Medicaid
identification numbers. In addition, local districts did not use all available resources within both
the downstate WMS and upstate WMS to ensure that beneficiaries were not issued multiple
Medicaid identification numbers. State agency guidance states that local district employees
should review a WMS-generated report on potential beneficiary matches to determine whether
an applicant is receiving medical or public assistance benefits and has been issued a Medicaid
identification number. These reports, however, do not identify matches between the downstate
WMS and upstate WMS. Local district employees have the ability to manually search both
systems to determine whether an applicant in their district is currently enrolled in any medical or
public assistance program or whether a newborn or SSI beneficiary already has a Medicaid
identification number. However, local district employees did not effectively use these tools.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $23,406,895 in Federal Medicaid fee-for-service reimbursement for inpatient hospital
services made on behalf of beneficiaries for whom separate Medicaid managed care payments
were also made.

                                         RECOMMENDATIONS

We recommend that the State agency:

     •   refund $23,406,895 to the Federal Government and

     •   use all available resources to ensure that no beneficiary is issued multiple Medicaid
         identification numbers or develop one eligibility system that could be used to determine
         whether applicants are enrolled in any medical or public assistance program throughout
         New York State.

                                    STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our first
recommendation (financial disallowance) and generally agreed with our second
recommendation. Specifically, the State agency indicated that the amount it should recover and
refund to the Federal Government is significantly less than what we recommended because some
of the beneficiaries associated with the unallowable claims were ineligible for enrollment in the
Medicaid MCO during our audit period. Therefore, according to the State agency, the

11
  Both the State agency and local districts may assign a Medicaid identification number to a newborn or SSI
beneficiary.

Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)                  4
beneficiaries’ associated fee-for-service claims were billed correctly. The State agency stated
that rather than recover the fee-for-service payments for these beneficiaries, it should recover the
monthly capitation payment made to the Medicaid MCO. Finally, the State agency described
steps that it has taken or planned to take to ensure that no beneficiary is issued multiple Medicaid
identification numbers.

The State agency’s comments are included in their entirety as Appendix D.

                                           OUR RESPONSE

After reviewing the State agency’s comments on our draft report, we maintain that our findings
are valid. The State agency did not prevent separate fee-for-service payments from being made
for beneficiaries already enrolled in Medicaid MCOs.

States must ensure that no payments are made to providers other than MCOs for services
available under the contract between the States and the MCOs. All of the inpatient services in
our population were available under the MCO plans. If beneficiaries were ineligible for
enrollment in an MCO, the State agency should have disenrolled them from the MCO when they
became ineligible (i.e., prior to claiming reimbursement for services on a fee-for-service basis).

Because our objective was to determine whether the State agency prevented separate Medicaid
fee-for-service payments for inpatient hospital services from being made on behalf of
beneficiaries who were enrolled in a Medicaid MCO, we did not determine whether the sample
beneficiaries were eligible for enrollment in a Medicaid MCO. In order for the State agency to
determine the appropriate amount it should recover using the approach it described in its
comments, it would have to develop a sampling frame of monthly capitation payments made for
these beneficiaries during the audit period. The State agency would then have to estimate the
total unallowable monthly capitation payments made on behalf of beneficiaries ineligible for
enrollment in MCOs.




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)       5
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 3,984 inpatient hospital admissions, totaling $51,441,844 ($25,740,732
Federal share), paid for the same month that a managed care payment was made for the same
beneficiary under a different Medicaid identification number during the period October 1, 2006,
through November 30, 2011. An inpatient hospital admission consisted of all fee-for-service
payments related to a beneficiary’s inpatient hospital admission.

We limited our review of the State agency’s internal controls to those applicable to our objective.
Specifically, we obtained an understanding of the controls the State agency had in place to
prevent inpatient claims from being made on behalf of beneficiaries enrolled in a Medicaid
MCO. Additionally, we gained an understanding of the State agency’s procedures for assigning
Medicaid identification numbers to eligible beneficiaries.

We conducted fieldwork at 13 local districts throughout New York State, including
New York City, from May through October 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations and State guidance;

    •   met with State agency officials to obtain an understanding of the controls it had in place
        for preventing fee-for-service and managed care payments from being made for the same
        beneficiary;

    •   met with State agency and local district officials to gain an understanding of the
        procedures for assigning Medicaid identification numbers and preventing the assignment
        of multiple Medicaid identification numbers;

    •   identified beneficiaries who have the same SSN, matching beneficiary information (i.e.,
        name, date of birth, and sex), and more than one Medicaid identification number;

    •   ran computer programming applications at the Medicaid Management Information
        System fiscal agent that identified a sampling frame of 7,806 inpatient hospital
        admissions, totaling $181,487,940 ($90,763,799 Federal share), paid during the same
        month that a managed care capitation payment was made for the same beneficiary under
        a different Medicaid identification number during the period October 1, 2006, through
        November 30, 2011;

    •   excluded 3,822 inpatient hospital admissions, totaling $130,046,096 ($65,023,067
        Federal share), that were not covered by the managed care capitation payment;

Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)      6
    •   determined that our revised sampling frame consisted of 3,984 inpatient hospital
        admissions, totaling $51,441,844 ($25,740,732 Federal share);

    •   selected a stratified random sample of 107 inpatient admissions from the sampling frame;

    •   obtained and reviewed case record documentation from the local district(s) for each
        sample item to determine whether a beneficiary was issued multiple Medicaid
        identification numbers;

    •   estimated the unallowable Federal Medicaid fee-for-service reimbursement paid in the
        total population of 3,984 inpatient hospital admissions; and

    •   discussed the results of our review with State officials.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)    7
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of inpatient hospital admissions made during the same month that a
managed care payment was made for the same beneficiary under different Medicaid
identification numbers during the period October 1, 2006, through November 30, 2011. An
inpatient admission consisted of all fee-for-service payments related to a beneficiary’s inpatient
hospital admission.

SAMPLING FRAME

The sampling frame consisted of an Access file containing 3,984 inpatient hospital admissions,
totaling $51,441,844 ($25,740,732 Federal share), made during the same month that a managed
care payment was made for the same beneficiary during the period October 1, 2006, through
November 30, 2011. The inpatient and managed care payments were extracted from the
New York State Medicaid Management Information System.

SAMPLE UNIT

The sample unit was an inpatient hospital admission.

SAMPLE DESIGN

We used a stratified random sample as follows:

    •   Stratum 1: inpatient hospital admissions with total payments less than or equal to
        $4,700 = 2,511 inpatient hospital admissions totaling $13,223,300 ($6,612,655 Federal
        share).

    •   Stratum 2: inpatient hospital admissions with total payments greater than $4,700 and less
        than or equal to $15,500 = 1,208 inpatient hospital admissions totaling $18,754,819
        ($9,389,189 Federal share).

    •   Stratum 3: inpatient hospital admissions with total payments greater than $15,500 and
        less than or equal to $90,000 = 248 inpatient hospital admissions totaling $14,880,571
        ($7,447,311 Federal share).

    •   Stratum 4: inpatient hospital admissions with total payments greater than $90,000 = 17
        inpatient hospital admissions totaling $4,583,154 ($2,291,577 Federal share).




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)         8
SAMPLE SIZE

We selected a sample of 107 inpatient admissions as follows:

            •   30 admissions from stratum 1,

            •   30 admissions from stratum 2,

            •   30 admissions from stratum 3, and

            •   17 admissions from stratum 4.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each of the first three strata. After generating 30
random numbers for each of these strata, we selected the corresponding frame items. We
selected all 17 sample units in stratum 4.

ESTIMATION METHODOLOGY

We used the OAS statistical software to calculate our estimates. We used the lower limit of the
90-percent confidence interval to estimate the total amount of unallowable Medicaid fee-for-
service payments that the State agency made for inpatient hospital services.




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)      9
                      APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                        Sample Details and Results

                                                                              No. of
                                                                            Inpatient
                                                                           Admissions
                                                                              With                  Value of
                               Value of                     Value of       Unallowable             Unallowable
            Inpatient           Frame                        Sample          Fee-for-            Fee-for-Service
           Admissions          (Federal        Sample       (Federal         Service                Payments
Stratum     in Frame            Share)          Size         Share)         Payments             (Federal Share)
   1               2,511        $6,612,655        30          $78,033            30                      $78,033
   2               1,208         9,389,189        30          216,304            30                      216,304
   3                 248         7,447,311        30          904,665            30                      904,665
   4                   17        2,291,577        17        2,291,577            17                    2,291,577
 Total             3,984      $25,740,732        107       $3,490,579            107                  $3,490,579


                      Estimated Value of Unallowable Services (Federal Share)
                       (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate           $25,011,364
                               Lower limit               23,406,895
                               Upper limit               26,615,834




  Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)             10
                                APPENDIX D: STATE AGENCY COMMENTS 



             =========lr                            ~~~PJ.~~JK ll==========
             N~rav   R. Shah, M.D., M.P.H. 	
             Commissioner 	
                                                    HEALTH                                                   Sue Kelly
                                                                                          Executive Deputy Commiss1oncr




                                                                      October 10, 20 13




            Mr. James P. Edert
            Regional Inspector General for Audit Services
            Department ofHealth and Human Services
            Office ofthe In spector General
            Jacob Javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 10278
                                                                      Ref. No. A-02- 12-0 1007
            Dear Mr. Edert :

                     Enclosed are the Department of Health ' s comme nts on the U.S. Department of Health
            and Human Services, Office of Inspector General draft audit report number A-02-12-01007
            entit led, "New York State Made Unallowable Medicaid Fee-For-Service Payments for
            Beneficiaries Also Enrolled in Medicaid Managed Care."

                      Thank you for the opportunity to comment.

                                                                      Sincerely,

                                                                      Michael J. Nazarko
                                                                      Michael J. Nazarko
                                                                      Deputy Commissioner
                                                                       for Administration

            Enclosure

            cc: 	     Jason A. Helgerson
                      James C. Cox
                      Diane Christensen
                      Lori Conway
                      Robert Loftus
                      Joan Kewley
                      Ronald Farrell
                      Brian Kiernan
                      Elizabeth Mi sa
                      OHlP Audit BML
                                                     HEALTH.NY.GOV
                                                     facebook com/NYSOOH
                                                     fW nPr t'nmiHAIIIthNYGo~o




Medicaid F ee-for-Se!Vice Payments for Beneficiaries Enrolled in Managed Care (A-02-12-01007)                             11
                                 New York State Department of Health 

                                            Comments on the 

                            U.S. Department of Health and Human Services 

                                      Office of Inspector General 

                              Draft Audit Report A-02-12-01007 Entitled, 

                             New York State Made Unallowable Medicaid 

                            Fee-For-Service Payments for Beneficiaries Also 

                                  Enrolled in Medicaid Managed Care 


            The following are the New York Stat e Department of Health 's (Department) comments in
            response to the U.S. Department of Healt h and Human Services, Office oflnspector General's
            (OIG) draft audit report A-02-1 2-0 1007 entitled, "New York State Made U nallowable Medicaid
            Fee-For-Service Payments for Beneficiaries Also E nrolled in Medicaid Managed Care."

             Recommendation #1:

            Refund $23,406,895 to the Federal Government.

             Response #1:

             T he Department does not agree with the recovery of $23 ,406,895 to the Federal Government for
             the audit period October 1, 2006 through November 30, 2011. The Office of the Medicaid
             Inspector General ' s (OMIG) analysis (which the Department has independent ly confirmed)
             reveals that the total recovery will be significantly less t han the $23.4 million o rig inally
             estimated by the OIG because the Federal governm ent's refund calculation methodology is solely
             based on the recoupme nt of the fee-for-service (FFS) claims paid during the audit period . We
             disagree with thi s analysis because at least 60 of the I 07 indi viduals in the sample were
             inelig ible for enrollment in Medi caid Managed Care (MMC) Plans during th e audit period, and
             billed the FFS claims correctly. In these instances, it is the monthly per member per month
             capitation payment made to the MMC Plan that should be recovered, not the FFS payment.
             T herefore, the recoupment amounts will be less than the Federal Government's estimates as
             stated in the draft audit report #A-02-12-01007.

             T he Department w ill work wit h OMIG to recover all inappropriate payments and any Federal
             share ofthese overpayments will be refunded to the Federal government.

             Recommendation #2:

             Use all available resources to ensure that no beneficiary is issued mu ltipl e Medicaid
             identification numbers or develop o ne elig ibility system that could be used to determine whether
             applicants are enrolled in any medical or public assistance program throughout New York State.

             Response #2:

             The Department continues to make every possible effort to eliminate the creatio n of duplicate
             Client Identification N umbers (CIN) for Medicaid consumers. Duplicate CIN identification




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care           ~ -02-12-0 I 007)          12
             processes to correct duplicate CIN situations are in place on the elig ibility side. With the advent
             of the new marketplace, New York State of Health (NYSOH), new processes are being
             implemented to minimize or eliminate the creation of multiple CINs for enrolled individuals. The
             eligibility system for NYSOH w ill phase in the entire Medicaid pop ulation and eventually the
             human services programs such that one system will be used to generate CINs. DOH will be
             doing a "Central Clearance" of all three systems (NYSOH, Welfare Management System (WMS)
             Upstate/Downstate) to prevent duplicate CINs to the maximum extent possible. However, the
             data matching is more challenging g iven the di fferences for the collection and storage of dat a
             between the old WMS and new NY SOH.

             For managed care enrollments, CIN identified as being dup licates are blocked from batch
             enro llme nts (enrollment broker or auto assignment from the WMS) . The Department has
             developed a coding process with a hierarchy of checks and sends duplications to the counties to
             be corrected. The bulk of the duplication errors have already been processed, or will be in the
             near future, however, the Department will continue to clean-up duplications on an on-going
             basis.




                                                              2




Medicaid Fee-for-Service Payments for Beneficiaries Enrolled in Managed Care             ~ -02-12-0 I 007)          13
